No.
IN THE

Supreme Court of the United States

OCTOBER TERM, 2020

 

GENESIS JAVON WHITE,
Petitioner,
Vv.
UNITED STATES OF AMERICA

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, Genesis Javon White, has enclosed Petition for Writ of Certiorari to the United States Court
of Appeals for the Eleventh Circuit without prepayment of costs and to proceed in forma pauperis in accordance with
Supreme Court Rule 39, and 18 U.S.C. ยง 3006A(d)(6).The filing of this petition is a continuation of the representation
of the Defendant under a Criminal Justice Act appointment of the undersigned by the Eleventh Circuit, In accordance
with 18 U.S.C. ยง 3006A(d)(6), no affidavit as required by Supreme Court Rule 39, need be filed.

WHEREFORE, Petitioner, Genesis Javon White, asks for leave to proceed in forma pauperis.
Dated this 13" day of November, 2020

 

10

|
Noel G. Lawrence, Esquire
Florida Bar No.: 844251

101 Union Street East, Suite 200
Jacksonville, Florida 32202
Telephone: 904-356-9928
Facsimile: 904-356-6762

Email: nglawren@|pnlaw.com

Attorney for Petitioner

11

 
